      "qAMTRAK
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                           Office of Inspector General


Memorandum
To: _--=::::-:;--Go~on Hutchinyon,    Acting Chief Financial Officer
            -X -=o/.~c~
From:          David R. Warren
               Assistant Inspector General, Audits

Date:          October 4, 2012

Su bject:      Change Orders on ARRA Projects


Amtrak received $1.3 billion under the American RecovelY and Reinvestment Act of 2009
(ARRA) for infrastructure and security improvements. There was approximately $63
million in change orders on ARRA projects. This is to ad vise you that we are initiating
a review to assess adequacy of the process to review and approve change orders.

Our specific objective is to determine whether the amounts paid to accomplish change
order work were adequately supported. We request that your office arrange an entrance
conference for us with the appropriate Amtrak officials at the earliest possible date. We
will keep you advised of the status of our work and any material changes in our audit
objectives.

Dorian Herring will be the auditor-in-charge for this assignment and will be assisted by
Dave Burrell, Mary Ellen Moran, and Jolm Weinle. If you have questions regarding this
audit, please contact me at (202) 906-4742 (david.warren@am trakoig.gov) or Michael
Kelmedy, Senior Director, Audits, at (202) 906-4308 (michael.kelmedy@amtrakoig.gov).



cc:     DJ Stadtler, Vice President, Operations
        Jeff Martin, Chief Logistics Officer
        William Coleman, Senior Director, Procurement
        William Herrmann, Managing Deputy General Counsel
        Jessica Scritchfield, Senior Director, Internal Controls/Audit
